HHS/OIG-Audit--"Operation Restore Trust Skilled Nursing Facility Review Conducted at Integrated Health Services of Green Briar, Miami, Florida, (A-04-96-01131))"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust Skilled Nursing Facility Review Conducted at Integrated Health Services of Green Briar,
Miami, Florida," (A-04-96-01131)
February 6, 1997
Complete
Text of Report is available in PDF format (846 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The primary objective of the review was to evaluate the medical necessity of the care and services provided and the reasonableness
of the charges and reimbursements made during the period from January 1, 1994 through December 31, 1994.
The Operation Restore Trust reviewers questioned $202,780 in charges reported for the 26 sample beneficiaries in our study.
This amount comprises $192,505 related to unnecessary physical, occupation, speech and respiratory services, and $10,275
of unallowable routine supply and drug services. We are recommending an adjustment of the above charges and for the Fiscal
Intermediary to conduct a focused review of all occupational therapy services and supplies since the period of our review
in order to recoup overpayments made to this skilled nursing facility.